<html>
<title> - ARLINGTON NATIONAL CEMETERY--PRESERVING THE PROMISE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                  
                        [H.A.S.C. No. 115-82]

          ARLINGTON NATIONAL CEMETERY--PRESERVING THE PROMISE

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 8, 2018


                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-460                      WASHINGTON : 2019                     
          


                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
                 Dan Sennott, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Allen, Forrest, Associate Director, Government Relations, 
  Military Officers Association of America.......................     2
Avila, Gerardo, Deputy Director, Veterans Affairs and 
  Rehabilitation Division, The American Legion...................     3
Durham-Aguilera, Karen, Executive Director, Army National 
  Military Cemeteries, Department of the Army; and Katharine 
  Kelley, Superintendent, Arlington National Cemetery............    13
Towles, John, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................     5
Zuegel, Col Keith W., USAF (Ret.), Senior Director, Government 
  Relations, Air Force Association...............................     7

                               
                               APPENDIX

Prepared Statements:

    Allen, Forrest...............................................    26
    Avila, Gerardo...............................................    37
    Coffman, Hon. Mike...........................................    25
    Durham-Aguilera, Karen.......................................    57
    Towles, John.................................................    42
    Zuegel, Col Keith W..........................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
          
          
 
        ARLINGTON NATIONAL CEMETERY--PRESERVING THE PROMISE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Thursday, March 8, 2018.
    The subcommittee met, pursuant to call, at 10:56 a.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. This hearing is called to order. I want to 
welcome everyone to this morning's Military Personnel 
Subcommittee hearing. The purpose of today's hearing is to 
receive testimony from stakeholders and Department officials on 
the future of Arlington National Cemetery. This iconic resting 
place for generations of brave men and women who have served 
their country is truly a national treasure. During its 153-year 
history, more than 400,000 people have been interred or inurned 
at the cemetery. Unfortunately, the cemetery is rapidly running 
out of space. If nothing is done, in a matter of 23 short 
years, the cemetery will be closed for new burials.
    In response to a congressional mandate, last year, the 
Secretary of the Army provided a report on Arlington National 
Cemetery's capacity. The report makes clear that action is 
required if we hope to preserve Arlington as an active 
cemetery. I look forward to hearing from our two panels about 
the recommendations on how best to preserve Arlington National 
Cemetery. For our first panel, comprised of military and 
veteran organizations, I look forward to hearing the views of 
the veterans and Active Duty members who will be directly 
impacted by any decisions regarding changes of eligibility 
criteria. I also look forward to hearing your members' ideas on 
how best to preserve Arlington National Cemetery as an active 
cemetery well into the future.
    For our second panel, consisting of the leadership of 
Arlington National Cemetery, I look forward to hearing what 
steps have been taken to exhaustively research the capacity 
issue and what options are available to maximize both 
eligibility and the life of the cemetery.
    We will give each witness an opportunity to present his or 
her testimony and each member an opportunity to question the 
witnesses for 5 minutes. We would also respectively remind the 
witnesses to summarize, to the greatest extent possible, the 
high points of your written testimony in 5 minutes or less. 
Your written comments and statements will be made part of the 
hearing record.
    Let me welcome our first panel today. Mr. Forrest Allen, 
Associate Director of Government Relations, the Military 
Officers Association of America; Mr. Gerardo Avila, Deputy 
Director, the Medical/Physical Evaluation Boards and Department 
of Defense, The American Legion; Mr. John Towles, Deputy 
Director, National Legislative Service, Veterans of Foreign 
Wars; Colonel Keith Zuegel, United States Air Force (retired), 
Senior Director, Government Relations, Air Force Association.
    With that, Mr. Allen, you may now make your opening 
statement.
    [The prepared statement of Mr. Coffman can be found in the 
Appendix on page 25.]

  STATEMENT OF FORREST ALLEN, ASSOCIATE DIRECTOR, GOVERNMENT 
      RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA

    Mr. Allen. Thank you, Chairman Coffman, Ranking Member 
Speier, and other distinguished members of the Military 
Personnel Subcommittee of the House Armed Services Committee. 
On behalf of the Military Officers Association of America 
[MOAA], I am grateful for the opportunity to present our 
position concerning the future of Arlington National Cemetery.
    With finite years of capacity for new burials remaining at 
the cemetery, it is important to maintain the dignity of burial 
there, respect the end-of-life plans for the currently eligible 
population, and, if possible, take reasonable steps towards 
extending the life of the cemetery for future service members. 
MOAA commends the Secretary of the Army, congressional 
committees, the advisory committee on Arlington National 
Cemetery, and other cemetery officials for making significant 
efforts to include all stakeholders in this discussion. It is 
fitting that today's hearing is about preserving the promise.
    To MOAA, preserving the promise of the cemetery is 
resolving to allow those in the currently eligible population 
with expectations of burial at Arlington to execute their end-
of-life plans. No promise exists that the cemetery will remain 
open for new burials forever, nor is there a promise that 
future service members, even retirees, will be guaranteed an 
opportunity to be buried there. Either way, if a decision is 
made, it is going to be very important to address future 
expectations with expediency.
    Preserving the promise also means preserving the dignified 
setting, the aesthetics, and the history of the cemetery. While 
many other national cemeteries across the Nation serve a 
similar purpose in honoring those who served and do so very 
well, Arlington, undoubtedly, has a special connotation of its 
own.
    So many of the interested groups, many sitting with me 
here, have been talking about two primary options for extending 
the life of the cemetery: expansion and eligibility changes. 
Expansion of the cemetery grounds, contiguously or not, is a 
viable path forward and is the preferred method of extending 
the life of the cemetery. While it is costly and time-
consuming, MOAA members have clearly indicated their preference 
for expansion over significantly restricting eligibility. The 
advisory committee's first survey also revealed a strong desire 
to undertake expansion efforts first.
    Opportunities for expansion to adjacent lands are few. 
However, Option 2C of the February 2017 advisory committee 
report to Congress suggested the establishment of a new DOD 
[Department of Defense] national cemetery at a separate 
location, which we believe could serve as the starting point 
for noncontiguous expansion of the cemetery. Locations like 
Gettysburg or Quantico could serve as dignified burial sites 
associated with the original Arlington Cemetery. And while such 
sites might not have the same feel at the outset, there is 
potential for that aura to develop over time. Recall, after 
all, that the Arlington Cemetery we know today did not develop 
its reputation overnight.
    Eligibility restrictions are a tougher sell. MOAA does not 
oppose restricting a select number of gravesites for those who 
are killed in action, or who earn a particular award of high 
honor. However, the expectation and earned right to be laid to 
rest at Arlington for the currently eligible population should 
not be exchanged for an Active Duty member who serves in the 
future and dies from a noncombat-related incident.
    So if at the end of your deliberations, eligibility 
restrictions are deemed desirable or necessary, MOAA suggests 
there should, at a minimum, be a reinstatement of the 
reservation system to allow those who have already made plans 
at Arlington to have a chance to have their wishes honored.
    So MOAA surveyed its membership about a year and a half 
ago, and some of the significant results are listed in our 
written testimony. But the survey revealed that reaching 
maximum capacity is a widely accepted fate. So when the 
cemetery is full, it is going to be full. At the same time, 
respondents were evenly split for and against changing 
eligibility restrictions after all expansion options were 
exhausted. Also, about two-thirds of respondents suggested 
eligibility changes would be acceptable so long as retirees 
remained eligible.
    Thus, to best honor the promise of Arlington, MOAA has 
several recommendations: One, Congress not take action 
restricting eligibility for the military retiree population, 
other than reserving a set number of plots for specific 
honorees; two, Congress appropriate funds to undertake 
acquisition and development of adjacent land, including the 
completion of the Southern Expansion Project currently 
underway; and three, Congress appropriate funds for the study 
and eventual acquisition of noncontiguous land to be used as an 
Arlington annex.
    Thank you to the Subcommittee on Military Personnel for 
holding this hearing to examine the options forward. We eagerly 
look forward to any recommendations that come from the 
discussion. And I look forward to your questions. Thank you.
    [The prepared statement of Mr. Allen can be found in the 
Appendix on page 26.]
    Mr. Coffman. Mr. Avila, you are now recognized for 5 
minutes.

 STATEMENT OF GERARDO AVILA, DEPUTY DIRECTOR, VETERANS AFFAIRS 
        AND REHABILITATION DIVISION, THE AMERICAN LEGION

    Mr. Avila. It is often said that taking a walk through 
Arlington National Cemetery is to take a walk through America's 
history with its most revered patriots. Laying our Nation's 
veterans, service members, and their eligible family members to 
rest with dignity, respect, and honor, is the foundation of the 
mission of this hallowed ground called Arlington National 
Cemetery. The hallowed grounds of Arlington, which has stood 
since the Civil War as the crown jewel of reverence for the 
fallen men and women who have served this Nation during peace 
and wartime, is at its crossroads in its long, proud history.
    Chairman Coffman, Ranking Member Speier, and distinguished 
members of the Subcommittee on Military Personnel, on behalf of 
our National Commander, Denise H. Rohan, and the 2 million 
members of The American Legion, thank you for the opportunity 
to testify regarding the future of Arlington National Cemetery.
    The likelihood that Arlington National Cemetery, with this 
150-year history, could cease to operate within the next three 
decades is a real possibility. There are currently 71 living 
Medal of Honor recipients with 11 from our current conflicts. 
These 11, if they live to average life expectancy, will not 
have the option to be buried at Arlington due to lack of 
capacity. Extending the life of Arlington as an active cemetery 
will require difficult decisions to be made. And recognizing 
this reality, The American Legion adopted Resolution No. 93 
during our national convention in 2016, urging Congress to 
codify eligibility criteria to be restricted to service members 
who die in Active Duty, and to our most decorated veterans to 
include recipients of the Purple Heart; former members of the 
Armed Forces, separated from the military before October 1, 
1949, with a physical disability of 30 percent or greater; 
retirees; eligible spouses and children; former prisoners of 
war; and for the President or former Presidents as Commanders 
in Chief.
    The American Legion also believes that there should be no 
waivers for unqualified persons, except under unique and 
compelling circumstances, in order to assure that the remaining 
spaces are used judiciously. The options of expansion and using 
new burial techniques have also been suggested as ideas to 
increase capacity. Each comes with its own sets of challenges. 
Expanding the current footprint will be difficult, due to 
Arlington's geographical location.
    Other expansion challenges include money and time. The two 
current expansion projects underway have a combined budget of 
over $350 million. The American Legion supports exploring the 
option of expansion within close proximity to the current 
footprint in the Capital Region. We support the proposal for 
exploring alternative ideas and maximizing the current and any 
future space with the use of new burial techniques that will 
allow for increased use of above-ground inurnments.
    The American Legion shares with the U.S. Army its expressed 
concern in using new above-ground techniques, fearing it will 
alter the architectural design of the cemetery. However, we 
remain open to changes that do not detract from Arlington and 
would be beneficial in creating additional capacity. The 
American Legion's own 100-year history is intricately 
intertwined with endeavors to pursue the legacy of this 
Nation's veterans and current service members.
    We would like to take this opportunity to acknowledge and 
say thank you to Arlington National Cemetery, the advisory 
committee, for beginning this very important conversation and 
for including The American Legion and the veteran service 
organizations. Our 2 million members, as well as all living 
veterans, deserve to have a voice when deciding the future of 
such hallowed place.
    Thank you, again, Chairman Coffman, Ranking Member Speier, 
and distinguished members of the subcommittee. We appreciate 
the opportunity to present The American Legion's views and look 
forward to any questions that you and/or the subcommittee may 
have.
    [The prepared statement of Mr. Avila can be found in the 
Appendix on page 37.]
    Mr. Coffman. Thank you, Mr. Avila.
    Mr. Towles, you are now recognized for 5 minutes.

STATEMENT OF JOHN TOWLES, DEPUTY DIRECTOR, NATIONAL LEGISLATIVE 
               SERVICE, VETERANS OF FOREIGN WARS

    Mr. Towles. Chairman Coffman, Ranking Member Speier, and 
members of this subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars [VFW] of the United States and its 
auxiliary, I would thank you for the opportunity to testify 
before this distinguished subcommittee this morning and to 
present our views concerning the future of Arlington National 
Cemetery.
    As this Nation's oldest war veterans service organization, 
the VFW and its auxiliary proudly represent more than 1.7 
million members, including 300 post-9/11 veterans, and more 
than 60,000 members of the Active Duty National Guard and 
Reserves. This is one of the many reasons that the future of 
our Nation's most hallowed ground has been, and will continue 
to be, a top priority for us.
    In 1967, President Lyndon Johnson requested that the 
Department of Veterans Affairs [VA] conduct a survey of all 
existing veterans benefits to include burial and cemetery 
programs administered by both the Department of the Army and 
the VA.
    A year later, in consultation with the National Veterans 
Advisory Committee, which included VFW representation, they 
delivered a report to Congress that paved the way for the 
transfer of 82 of the Army's 84 cemeteries. The only two that 
remain under the care of the Army was the Soldiers Home 
National Cemetery and Arlington National Cemetery. Nineteen 
sixty-seven also saw a significant restriction placed on the 
eligibility at Arlington due to growing concerns that the 
number of American service members being killed in action 
during the Vietnam War and the rapidly aging World War II 
veteran population would soon fill Arlington to its capacity.
    This new regulation restricted in-ground burials to 
military personnel who died on Active Duty, or career military 
retirees or recipients of this Nation's highest military 
awards. At that time, VFW vehemently opposed any eligibility 
restrictions. In fact, our membership was so outraged that we 
completely withdrew from Arlington's Veterans Day ceremony that 
year, sparking a national controversy, as you can imagine.
    As a membership organization, the VFW is required to 
represent the views and preferences of our members. And in 
1967, this meant opposing any eligibility restrictions. Much 
has changed since 1967.
    After many meetings with top officials within the Office of 
the Secretary of Defense and the Department of the Army 
throughout the years, as well as surveys and roundtables 
conducted by Arlington National Cemetery leadership, many 
proposals to reform eligibility have been brought forward and 
submitted for our consideration.
    At this time, there is only one eligibility restriction 
that has been brought forth that the VFW supports, and that is 
to restrict eligibility to 24 months of Active Duty service, 
not including those who were killed in action or die on Active 
Duty. Enacting this eligibility restriction would effectively 
make in-ground interment policy for Arlington commensurate with 
that of the cemeteries within the VA's National Cemetery 
Administration, and would reduce the workload at Arlington by 
approximately 200 burials per year.
    While the VFW acknowledges that restricting eligibility to 
those who are killed in action or Medal of Honor recipients 
would ensure that Arlington remains open in perpetuity, the VFW 
has an obligation to advocate for, and preserve the integrity 
of, the option best suited to do the most good for the most 
number of veterans. Additionally, restricting eligibility to a 
very small category of veterans is simply not feasible at this 
time, not if the true goal is to provide those who are entitled 
to be laid to rest at one of America's most sacred cemeteries 
the ability to do so.
    Furthermore, the VFW feels it is imperative that the way 
forward also include the acquisition of additional space in 
some form, as land is a finite resource. This is why the VFW 
fully supports the proposed Southern Expansion which would, 
according to Arlington officials, add an additional 30 to 40 
acres to the cemetery and provide approximately 40- to 60,000 
new gravesites. When combined with the proposed 24-month 
eligibility restriction, the life of the cemetery would be 
extended through 2074.
    You may be asking yourself, what about after 2074? As 
previously stated, there is no easy answer given the current 
shortage of land in the area. However, there is one property 
that may offer a solution, and that is the Armed Forces 
Retirement Home.
    For the past decade, VFW members have donated their time 
and resources to assist the residents in the Armed Forces 
Retirement Home by helping to maintain the property through 
various service projects. Every year we go out, we see unused 
space. We see a golf course that is struggling to remain open. 
We read articles in the local press concerning proposals to 
develop up to 80 acres of so-called excess space on the 
property for commercial use. And most of us have seen by now 
the most recent Army IG [Inspector General] report highlighting 
the failures of officials to conduct proper oversight of this 
property. The Cemetery at the Armed Forces Retirement Home is, 
aside from Arlington itself, arguably one of the most historic 
oldest cemeteries in this country.
    Mr. Chairman, if 30 to 40 acres will provide an additional 
40,000 to 60,000 gravesites, then simple math tells us that 
reclaiming the 80 acres of surplus land there would give us an 
additional 80,000 to 120,000 gravesites which would push us 
well beyond 2074. Aside from that, we must continue to 
encourage VA to work with their other State and Federal 
partners in order to expand the National Cemetery 
Administration's current inventory, while also working with 
your colleagues on the House and Senate Veterans Affairs 
Appropriations Committee to provide them with the funding 
needed to do so.
    In the end, the men and women who served this Nation 
honorably, as well as their family members, deserve to be laid 
at rest in hallowed ground. It may not have been a 
consideration while they were serving, but it is an honor that 
they have nonetheless earned through their blood, sweat, and 
tears. As a Nation, we have an obligation to ensure that they 
and their sacrifices are as honored as thoroughly as possible. 
This includes their final resting place.
    Mr. Chairman, Ranking Member Speier, this concludes my 
testimony, and again, I want to sincerely thank you for the 
invitation to come and testify on this topic. And I look 
forward to any questions you may have.
    [The prepared statement of Mr. Towles can be found in the 
Appendix on page 42.]
    Mr. Coffman. Thank you, Mr. Towles.
    Colonel Zuegel, you are now recognized for 5 minutes.

STATEMENT OF COL KEITH W. ZUEGEL, USAF (RET.), SENIOR DIRECTOR, 
          GOVERNMENT RELATIONS, AIR FORCE ASSOCIATION

    Colonel Zuegel. Thank you, Mr. Chairman.
    Chairman Coffman, Ranking Member Speier, Congressman 
Wenstrup, Congressman Bacon, thank you for being here today, 
and the other members of the committee. On behalf of the Air 
Force Association's membership of 96,000, the nearly 700,000 
airmen, civilians, and families that we represent, and the 
millions of veterans who have worn Air Force blue, I am honored 
to testify today on the importance of Arlington National 
Cemetery.
    We have been involved in this issue for quite some time, 
and routinely participate in meetings with the Arlington 
National Cemetery's advisory committee. There are an estimated 
22 million veterans alive today who serve--22 million veterans 
alive today who served honorably and understand the 
significance and the impact of Arlington National Cemetery. As 
the organization that led the financing and construction of the 
Air Force Memorial, which could potentially be encroached by 
cemetery expansion options, we at AFA [Air Force Association] 
realize that the surrounding land is finite. Space on this 
hallowed ground is projected to run out in the early 2040s, and 
a solution must be found soon.
    Thank you for holding this hearing, for having this 
difficult discussion. We strongly believe that our Nation's 
decision makers should explore an all-of-the-above strategy to 
include land expansion and land optimization before reducing or 
curtailing eligibility. It is important to keep this cemetery 
viable as long as possible for future Medal of Honor 
recipients, those killed in combat, and top medal awardees. We 
should strive to obtain surrounding land to expand the present 
cemetery. Although the cemetery's majestic serenity should be 
largely preserved, there are avenues to increase burial 
locations without losing the cemetery's solemn presence.
    In addition to exploring expansion possibilities, more 
above-ground inurnments should be considered. As military 
members age and consider their final resting place, it is 
paramount that the hearing today be followed up by quick and 
decisive action. From the Secretary of the Army, Secretary of 
Defense, and the President, we ask for your oversight in making 
sure this happens.
    Thank you for the invitation to testify today. We thank you 
for bringing this issue before the public. And the Air Force 
Association is honored to be part of it. We are honored to 
present testimony to advocate for the continued viability of 
Arlington National Cemetery. We are entrusted with the solemn 
responsibility to care for those men and women that have 
sacrificed so much for our great Nation. And we are eager to 
work with the U.S. Congress and Department of Defense on the 
best way forward for Arlington National Cemetery.
    Thank you. We stand ready for your questions.
    [The prepared statement of Colonel Zuegel can be found in 
the Appendix on page 49.]
    Mr. Coffman. Thank you, Colonel Zuegel.
    Let me just start.
    Mr. Allen, I have a question for you. The results from the 
first survey appear to favor restricting eligibility to POWs 
[prisoners of war], valor awards, the Purple Heart, Medal of 
Honor, killed in action, and Active Duty. Sixty-eight percent 
of the veterans in this survey favor this category, while only 
47 percent favor keeping retirees eligible. And I am referring 
to a survey that was done, I believe, by the Department of the 
Army.
    I am curious why your testimony is contradictory to the 
survey results. Can you elaborate on this?
    Mr. Allen. Thank you, Mr. Chairman, for the question.
    Yes. So our position is contrary to what that particular 
point in the Arlington National Cemetery advisory committee 
survey said, because I am here representing the members of the 
Military Officers Association. And our members explicitly 
stated that they prefer not to restrict eligibility to the 
military retiree population. And I think that is the 
distinguishing factor between the data point that you are 
bringing up from the advisory committee survey versus what our 
stance is.
    So it is not that we are completely against reserving a 
certain number of plots for those categories which you 
mentioned are part of that data point, but our members 
certainly want to preserve a number of spaces for the retiree 
population.
    Mr. Coffman. Let me ask this to the others, if they would 
like to comment on this. And, again, the results from the first 
survey conducted by the Arlington National Cemetery Foundation 
favors restricting eligibility to POWs, valor awards, the 
Purple Heart, Medal of Honor, those killed in action, and 
Active Duty. Would the rest of you comment on that?
    Mr. Avila.
    Mr. Avila. I believe there were about 28,000 people that 
participated in the survey, not necessarily veterans. I think 
there were different categories where family members or people 
that have no association to the cemetery.
    The American Legion has our Resolution 93; that is the 
current criteria that we support. But I think part of this 
leads to the difficult discussion that must be had, and we can 
bring back to our membership and educate them on the tough 
choices that might have to be made. We would like to continue 
to engage Arlington Cemetery and the advisory committee to 
shape any criteria down the future. But our current position is 
based on Resolution 93, Chairman.
    Mr. Coffman. Okay. Mr. Towles.
    Mr. Towles. Mr. Chairman, I echo my colleague's sentiment 
from MOAA. We are a membership-driven organization. And as a 
result, we have to consult with them when we make a stance such 
as this. Our stance is if you are going to restrict 
eligibility, it should be done as minutely as possible as to 
provide the most benefit to the most amount of veterans.
    Mr. Coffman. Okay. Colonel Zuegel.
    Colonel Zuegel. Mr. Chairman, pretty much along those 
lines. Again, expansion. But we also think we should consider 
the 24 months of Active Duty eligibility that--similar to what 
the VA has. And then the other categories you named, of course, 
what is left out of that affects most of our members, our 
retirees. And I think more of a discussion has to be for Active 
Duty retirees.
    Mr. Coffman. Okay. Let me, if I can, throw out one more 
question to you.
    A few of you have stated that your members understand that 
eligibility criteria changes need to be explored in order to 
keep Arlington National Cemetery an active cemetery, but that 
these changes should not be applied to those who have already 
made end-of-life plans that include burials at Arlington 
National Cemetery.
    What is your recommended method for identifying and 
distinguishing those individuals who have made end-of-life 
plans and those who haven't?
    Why don't we start--Mr. Allen, let's start with you.
    Mr. Allen. Thank you, Mr. Chairman.
    So we believe at MOAA that there is an opportunity to 
reinstate a reservation system. There was one in the past 
before we had the niceties of computers and the internet to 
hold a registration system. But we think a new reservation 
system might give people an opportunity to express their 
interest in being buried there.
    Mr. Coffman. Mr. Avila.
    Mr. Avila. Our resolution does not state reservation 
system, so we have no position on that. We have the criteria 
that we feel should be met and able to be interred, buried in 
Arlington. But like I said, if it is a decision that must be 
made to expand Arlington's life, then I think that is a 
conversation that we can have with our membership.
    Mr. Coffman. Mr. Towles.
    Mr. Towles. Mr. Chairman, we have no thoughts concerning a 
reservation system.
    Mr. Coffman. Colonel Zuegel.
    Colonel Zuegel. Yes, sir. I believe the reservation system 
is a good idea, and we should explore that option as well.
    Mr. Coffman. Very well.
    Dr. Wenstrup, you are now recognized for 5 minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman. I just have one 
quick question.
    Colonel, you had mentioned other interment methods. Could 
you elaborate on that? I think you were referring to other ways 
of interring people maybe at Arlington.
    Colonel Zuegel. Congressman, what I meant to portray is 
that, you know, we want to maintain the majesty of the iconic 
nature of the cemetery. And it is one of the--you know, it is a 
landmark, and it is that way for a reason. But there is ways, I 
think--as I drive into Rosslyn every day and I watch those--you 
know, all those that preceded us, it seems like there is still 
some space that could be had around that area. We could expand 
a little bit going closer to the fences. And there are some 
areas of the cemetery that I think we could, you know, use more 
land management as opposed to, you know, the way it is right 
now. You know, we could come a little closer to the boundaries. 
I also think we should look at more columbariums. We should 
look at the above-the-ground inurnments as well. And I think 
that would help and go a long way.
    Dr. Wenstrup. Okay. Thank you.
    That is the only question I have. I will yield to General 
Bacon.
    Mr. Bacon. Thank you very much. And for one of the few 
committee hearings, I can say I have been a member--a proud 
member of all four of your organizations. And I appreciate all 
four of you and who you represent.
    What I hear is--if I could summarize it. There is a 
reluctance to significantly change the criteria. But it is hard 
to buy more land. But that you all acknowledge we will 
eventually fill this up, and there will be no space for Medal 
of Honor winners and those killed in action. I am just sort of 
paraphrasing. Do I have that that about right?
    So I am hearing yes on all four of you.
    It just seems to me we, at least from my perspective, that 
we should put a higher priority in ensuring space for those 
killed in action, and those recognized for the courage, or, you 
know, Medal of Honor winners and Purple Heart winners. It seems 
like that place should be reserved for those who paid their 
ultimate sacrifice and who received the Medal of Honor. And if 
we don't make that action, I feel like it--doesn't do justice 
to those 10, 20, 30, 50 years from now. I just want to comment, 
but I welcome your feedback if--or you think I got that wrong.
    Colonel Zuegel. Congressman, I think most of us had agreed, 
when we were talking earlier, that we should save a select 
number of sites for, you know, the future Medal of Honor 
recipients and Purple Hearts and, you know, valor awardees. I 
think we should continue to do that and continue keeping it 
viable, but not at the exclusion of the members we represent or 
those that are honorably serving today and that made plans to 
be honored by being laid to rest at Arlington Cemetery.
    Mr. Bacon. But the reality is if we don't change that, it 
will fill up pretty fast, and it will limit the future of those 
who have paid the ultimate sacrifice and who earned the Medal 
of Honor. So I just think we have to realize that there is a 
choice here if we want to preserve this for those who have 
given their all. And it is not an easy choice. I am a near 30-
year Air Force veteran too. If I take the criteria that is 
being recommended, I won't be allowed to be buried there 
either. But I think I would prefer keeping that spot open for a 
Medal of Honor winner and someone who paid the ultimate 
sacrifice. But it sounds like I am a minority view on that, 
though, from the feedback that you have been given. Is that 
correct?
    Mr. Avila. So, I think from our perspective with the 
resolution that was made 2 years ago, you are correct in that. 
But I think this is the honest conversation, the tough 
questions that we need to ask. I am here representing The 
American Legion. Me, for myself, I am a retiree. If I meet the 
criteria for interment burial at Arlington, but you are telling 
me that my slot could be used for a Medal of Honor recipient, 
or a KIA [killed in action], for Gerardo, I would give up my 
slot for one if it can be guaranteed to be saved. But that is 
me. But this is the conversation that I believe we need to have 
with our membership and everybody at this table.
    Mr. Bacon. I think you and I feel the same way. Maybe it 
just takes more time to have this discussion and sensitize 
folks. Here is the choice. It is not--if we don't change the 
criteria, we will fill up the cemetery, and it will limit the 
future heroes, their ability to get there. I think all who 
served can say they--you know, you say heroism. I think for 
those who paid the ultimate sacrifice and won the Medal of 
Honor, Arlington should be reserved for them if no one else.
    I really appreciate getting your feedback, though. I think 
I expected to see more of that thinking. But, of course, we 
have had these discussions here. We know there is a fork in the 
road that we are going to have to take. So I think that I have 
been sensitized to it already.
    But I think what I am hearing today, Chairman, that we are 
going to have to do some hard work in communicating this to the 
veterans.
    And I yield back. And I thank you for your feedback from 
your members, which I am a one.
    Mr. Coffman. Well, thank you, General Bacon. You have got 
four out of four of these organizations. I got three out of 
four, so you got me beat. The Air Force is the only one ----
    Mr. Bacon. You get a C. I get an A.
    Mr. Coffman. I will take that. I think the Air Force is the 
only one I am not in.
    Colonel Zuegel. We are prepared to take care of that today, 
Mr. Chairman.
    Mr. Coffman. I don't think my test scores were there. So I 
was Army and Marine Corps, but I won't go there.
    Let me ask you all this question. If eligibility criteria 
change, what should be the timeline for phasing in those 
changes?
    Mr. Allen, we will start with you.
    Mr. Allen. Thank you, Mr. Chairman.
    We have not really discussed a timeline among our 
membership. And I would be hesitant to give you a projection on 
that without having discussed that. You know, if there is a 
decision, and it is going to be made anywhere in the reasonably 
near future, the big challenge that we would want to make sure 
that is going to be handled is the communication aspect of 
that. I know General Bacon just mentioned that. But, really, 
formulating a path forward to make sure all interested parties 
are aware of any changes coming will be an important factor.
    Mr. Coffman. We are doing a second round at this time.
    Mr. Avila, if you could answer--if eligibility criteria 
change, what should be the timeline for phasing in those 
changes?
    Mr. Avila. In accordance with the resolution, we know the 
criteria that American Legion supports. Approximately 67,000 
spaces are used annually, based on ceremonies that happen at 
Arlington. The first question I believe we need to answer is do 
we want Arlington to be an active cemetery? And the question is 
yes, I believe the sooner, as far as changing the criteria, to 
ensure that Arlington continues to be an active cemetery.
    Mr. Coffman. Mr. Towles.
    Mr. Towles. Mr. Chairman, I think we would have to see more 
specifics in terms of what you mean by eligibility changes. I 
mean, one option is to do the 24-month option to be on par with 
VA. The other one is just to allow KIAs and Medal of Honor 
recipients. So I think we would have to be more specific.
    I can state that currently, we have discussed a timeline of 
implementation for the option that we fully support. We are not 
prepared to make a comment about that currently, though.
    Mr. Coffman. Okay. Colonel Zuegel.
    Colonel Zuegel. Mr. Chairman, again, that is assuming that 
you have exhausted all methods for land expansion, all methods 
for a land management, and you have used all the above criteria 
and started invoking some--you know, and started looking at 
some selection. I think we could do it over the next decade. 
Obviously, if somebody hasn't entered yet, we should say, 
``This is the way the new system is,'' just like we did with 
the retirement. I think everybody would expect that, and that 
is very understandable. We can't wait 20 years because we are 
too close to the early 2040s, obviously. So we would have to do 
something within the next decade.
    Mr. Coffman. Okay.
    Colonel Zuegel. Just reasonably.
    Mr. Coffman. Well, let me ask another question. Do you 
believe--and this is to the entire panel. Do you believe that 
if the government acquired noncontiguous acreage in the 
National Capital Region, and designated it as part of Arlington 
National Cemetery, that it would achieve the same iconic status 
as Arlington National Cemetery has over time, or would it 
forever be regarded as an annex?
    Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman.
    We believe that such an acquisition of noncontiguous land 
would be a viable way of extending the life of the cemetery. I 
think that such a parcel of land would be able to develop the 
aura, the aesthetics that the current Arlington National 
Cemetery has, and that is in a great deal of thanks to the 
Department of Army for taking care of the grounds so well.
    Mr. Coffman. Thank you.
    Mr. Avila.
    Mr. Avila. We believe that it can reach the same status as 
Arlington currently does. And that has to do not just with the 
land location, but it goes with the honors that come with being 
interred at Arlington. And if those are continued to provide, 
we feel that it is a good viable option.
    Mr. Coffman. Mr. Towles.
    Mr. Towles. Resoundingly yes, especially as my colleagues 
have already stated, if those same benefits and honors were 
rendered and--I definitely believe so, so long as it is in the 
National Capital Region. It would be difficult to pitch that if 
it were in Texas, for instance. So yes.
    Mr. Coffman. Colonel Zuegel.
    Colonel Zuegel. It would be very difficult to match the 
iconic nature of Arlington National Cemetery whether we called 
it Arlington North or South, or whatever. So whether it is an 
annex or not--you know, I praise the Department of Defense and 
the Department of Veterans Affairs for what they do currently. 
You know, the cemeteries are all, you know, well-maintained and 
accessible to veterans, and they honor the veterans.
    I have had this personal discussion in my home about--you 
know, I am eligible also for burial at the Air Force Academy. 
And my kid said, ``Well, I would rather Dad be buried at 
Arlington National Cemetery, and--because we'd visit it more 
often.'' But I don't think you can match the iconic nature of 
Arlington Cemetery. But, you know, I think it is one of the 
all-the-above solution ideas that we have to come up with.
    Mr. Coffman. Okay. Thank you, Colonel Zuegel.
    We will now take a brief recess in order to set the witness 
table for the second panel. I want to thank everybody for your 
testimony today. I really appreciate it. Thank you.
    [Recess.]
    Mr. Coffman. I wish to now welcome our second panel.
    We would like to respectfully remind the second panel to 
summarize, to the greatest extent possible, the high points of 
your written testimony in 5 minutes or less. Your written 
comments and statements will be made part of the hearing 
record.
    Our second panel consists of Ms. Karen Durham-Aguilera, 
Executive Director of Army National Military Cemeteries; Ms. 
Kate Kelley, Superintendent, Arlington National Cemetery.
    With that, Ms. Durham-Aguilera, you are now recognized to 
make your opening statement.

 STATEMENT OF KAREN DURHAM-AGUILERA, EXECUTIVE DIRECTOR, ARMY 
   NATIONAL MILITARY CEMETERIES, DEPARTMENT OF THE ARMY; AND 
 KATHARINE KELLEY, SUPERINTENDENT, ARLINGTON NATIONAL CEMETERY

    Ms. Durham-Aguilera. So, Chairman Coffman and distinguished 
members of the subcommittee, thank you for the opportunity to 
provide a further update to the subcommittee.
    Arlington National Cemetery is the premier national 
military cemetery in our Nation's capital. It is an iconic 
place devoted to honoring our veterans' and patriots' service 
and sacrifice in the defense of our Nation. Each week, the 
cemetery faithfully conducts 150 funeral services on behalf of 
a grateful Nation.
    In fiscal year 2017, we interred nearly 7,100 Active Duty 
service members, veterans, and their family members. We also 
annually host approximately 3.3 million guests, helping each 
visitor connect to the sacrifices of our military. On behalf of 
the cemetery and the Department of the Army, I express our deep 
appreciation for the support provided by Congress over these 
many years.
    Arlington National Cemetery is proud to honor each 
generation of men and women who serve in the defense of our 
Nation. As the steward of this national shrine, the Army is 
committed to maintaining Arlington National Cemetery as an 
active cemetery and extending its legacy well into the future, 
currently defined as 150 years. Unfortunately, without changes 
to the eligibility requirements and the physical footprint, 
Arlington National Cemetery will not be a burial operation--an 
option for most who served in the Gulf War or any conflict 
since, regardless of their contributions, achievements, or 
valor. The Secretary of the Army's February 2017 report to 
Congress informs that the cemetery will reach maximum capacity 
in the early 2040s, and further discusses the difficult topics 
of eligibility and expansion.
    Arlington National Cemetery's ability to remain open as an 
active burial site well into the future is a function of 
limited burial capacity in conflict with extraordinary demand. 
Capacity meaning available gravesites and niches, and demand 
meaning the volume of families' request for interment and 
inurnment of the currently eligible populations. We are 
addressing capacity through the Millennium Project, nearly 
completed, and planning for the future Southern Expansion 
Project. Based on changing conditions and revised estimates, 
the Army requires additional authority and funding to complete 
the land acquisition and the defense access roads project 
associated with Southern Expansion. We are working with the 
Army staff and other committees of Congress to address these 
shortfalls.
    Beyond those efforts, there are no additional plans for 
increasing the available burial space through expansion. There 
are few adjacent Federal lands available to increase the 
cemetery's burial space. Even if these lands were made 
available, they would only extend the life of the cemetery by a 
few years, at a great cost. Expansion alone will not keep 
Arlington National Cemetery open to new interments past the 
2040s to 2050s. We must address the demand for interment by 
restricting eligibility in addition to physical expansion.
    We are very sensitive to the fact that many who have served 
or are currently serving would be impacted. We will evaluate 
ways to minimize these impacts, while also extending the life 
of Arlington National Cemetery. We will continue to champion, 
along with our partners of the Veterans Affairs National 
Cemeteries Administration, the 135 other beautiful national 
cemeteries our Nation provides to honor our veterans at over 
100 State-run veteran cemeteries.
    Our next phase will better inform stakeholders to the 
benefits and the risk of policy options and the reality of 
expanding the cemetery in the National Capital Region. It is 
our desire to give each stakeholder the information necessary 
for honest and thoughtful deliberation of any future changes. 
Further, it is our intent to initiate a second survey by the 
end of this month, March 2018, that will further provide public 
input and inform our future recommendations.
    The Army anticipates continuing robust and candid public 
dialogue as we move forward. Enabled by the tremendous support 
of Congress and the diligent efforts of our great dedicated 
team at Arlington National Cemetery, the Army will continue to 
sustain the sacred trust of our citizens.
    We look forward to working with Congress, the Advisory 
Committee on Arlington National Cemetery, the military service 
organizations, veterans service organizations, and the public 
on enabling the future of Arlington National Cemetery that 
continues its long tradition of honoring our Nation's heroes 
for generations to come.
    Chairman Coffman, this concludes my testimony. Ms. Kelley 
and I will gladly respond to any questions that you or the 
subcommittee members may have. Thank you.
    [The prepared statement of Ms. Durham-Aguilera can be found 
in the Appendix on page 57.]
    Mr. Coffman. Ms. Kelley.
    Ms. Kelley. Yes, sir.
    Mr. Coffman. Very good. Are you ready to answer questions?
    Okay. Ms. Durham-Aguilera, do you feel confident that you 
have done everything you can to remain inclusive and to not 
turn deserving veterans away, while still keeping the cemetery 
open for, sadly, our inevitable future war dead?
    Ms. Durham-Aguilera. Thank you, Chairman Coffman. It is a 
tough reality. You know, the current veteran population is over 
20 million. The retiree population is over 2 million. The total 
force, Active and Reserve, today is over 2 million. Right now, 
today, we have around 100,000 available burial spaces. We 
cannot serve that population in any event.
    There are numerous other options for veterans, to include 
the wonderful cemeteries from the VANCA [Veterans Affairs 
National Cemeteries Administration] as well as the State-run 
cemeteries. We do believe that we are looking at every 
possibility in what we can do, but we also know that we cannot 
serve that entire population no matter what. So we are looking 
to see what can we do in the near future.
    But one thing that we know, we are filling up every day. 
Within the next 3 to 4 years, Section 60 that a lot of people 
identify with, without any changes, it will be closed. So 
trying to get to that reality gives those hard choices is on 
our minds every single day as we go out and lay our veterans 
and patriots to rest.
    Thank you.
    Mr. Coffman. Ms. Kelley, do you have any additional 
comments on that?
    Ms. Kelley. I would only add that what we continue to do at 
the cemetery is efficiently and effectively manage space with 
what we have control over today and that all considerations are 
given to maximizing our ability to serve veterans and their 
families. And so we make decisions every single day in our 
planning processes and how we utilize the existing acreage that 
we have to effectively ensure we continue to provide that open 
and active experience that the public wants us to be.
    Thank you, sir.
    Mr. Coffman. We know that you have considerable aboveground 
space at Arlington National Cemetery. Is this still a good way 
to extend the life of Arlington National Cemetery, if more 
columbariums--did I say that right?--columbarium or niche wall 
space is developed to serve various populations?
    Ms. Durham-Aguilera. So thank you, Chairman Coffman. So 
today, in Arlington National Cemetery, we have about 64,000 
available belowground spaces. We have around 37,000 spaces 
available in the columbariums or the niche walls. The trends 
that we have seen over the last 5 years are very similar to 
what the VANCA is seeing, is that of the people that are going 
to be laid at rest at Arlington National Cemetery, about a 
third of them want to be buried in a columbarium or the niche 
walls. Again, it depends on their eligibility. About a third 
choose to have their cremated remains buried below ground. And 
then the other third are the traditional casket.
    So as we plan for the Millennium Expansion, which will be 
open later on this year, and as we are planning for the 
Southern Expansion, those were the trends that we are keeping 
in mind for our design.
    Now, as far as expanding more columbariums or niche walls 
at Arlington National Cemetery, there is few spaces where we 
could do that today. One of the things, too, that the VA 
considers is keeping niche walls to a certain height so that 
people can reach them. People want to come and put their hands 
on the niche cover of their loved one. So you can't build them 
too high or people can't do that and make that connection. So 
that is another consideration. But we cannot do that as our 
solution, our only solution to be able to keep Arlington 
National Cemetery, you know, open well into the future.
    Thank you.
    Mr. Coffman. Ms. Kelley, do you have any additional 
comments on that?
    Ms. Kelley. I would also add that the look and feel of the 
cemetery. As, Chairman, you described it as iconic in your 
opening statement. And I think the executive director and I, 
and certainly the Army, feel very strongly the same way. And we 
would want to balance the amount of aboveground space that is 
created so that we don't lose that iconic look and feel of what 
Arlington is today.
    Mr. Coffman. Okay. General Bacon, you are now recognized 
for 5 minutes.
    Mr. Bacon. Thank you very much.
    And I appreciate you both coming back. You really educated 
me the last time you were here, so I really appreciated the 
information and the truth.
    We've got to make a hard choice here. Before I ask you a 
question, I just want to say that I was a flagbearer 12 times 
at Arlington. It is a special place, and I think we have to 
preserve it for our future Medal of Honor winners and those 
killed in action. And I also want to just thank you for what 
you are doing for Nebraska. The Omaha National Cemetery will be 
the iconic place as far as Nebraska, and it has really come 
along very well. So that will be where I will be buried 
eventually. Hopefully a long time from now. I will kick the can 
as long as I can here on that.
    But I just want to say with clarity that I think it is an 
absolute necessity that we preserve Arlington National Cemetery 
for those killed in action or the line of duty. I could see 
there could be a difference there. And I think that is a good 
discussion point, or those who have earned the Medal of Honor 
or a like type of award. And if we don't do that, I think we 
have made a bad choice. I mean, this should be the ultimate 
place that we recognize those who have paid that ultimate 
sacrifice, and no other place is like Arlington for that.
    And to make that decision means it is a decision. It is a 
decision to not let that happen 20 years from now, 40 years 
from now, whenever that may be. So I think we have to make that 
decision now, in my humble view. And one of the choices that we 
heard earlier was that we should block off a segment of 
Arlington for Medal of Honor winners and killed in action, but 
don't change the criteria or tweak the criteria a little bit. 
What is the reality of that decision if we went down that path?
    Ms. Durham-Aguilera. So thank you, Senator. It won't make 
any difference.
    Mr. Bacon. Don't call me a Senator. That is illegal.
    [Laughter.]
    Ms. Durham-Aguilera. I am sorry.
    Mr. Bacon. Sorry. We have to push back on that.
    Ms. Durham-Aguilera. I will try to get over that 
embarrassment.
    So, Congressman Bacon, thank you very much. It won't make 
any difference. It would be pretty hard to call off that 
segment. How big is that segment going to be, when we only have 
a certain number of spaces to make any meaningful difference 
but just still try to take care of our Medal of Honor, killed 
in action, those who perish in other tragedies, like the USS 
Fitzgerald, last year, or the C-130. You know, God willing, we 
won't have a large number of that population, but we have a 
large number of our currently eligible population right now. 
Twenty million right now.
    So it really, realistically, would not make a meaningful 
difference to try to just hold just a small section, or however 
the case may be, for that category of people.
    Thank you.
    Mr. Bacon. It would probably have a minor impact, so I am 
hearing.
    Ms. Durham-Aguilera. Yes, sir.
    Mr. Bacon. Right.
    Ma'am, anything to add?
    Ms. Kelley. I think in our previous discussions and 
certainly in the documents that you have in front of you, you 
really see the difference that we are talking about. Holding 
space for those small populations is certainly doable, but does 
not fix the larger issue, which is the extraordinary demand of 
the other eligible populations. So, really, it is an untenable 
fix.
    Mr. Bacon. I am just thinking, last year, we lost 80 people 
in training accidents. So if we went with line of duty, I just 
feel like this is what Arlington was reserved for, for the 
highest levels of respect and those who did that. And let's be 
honest, a no decision is a decision, and it is not the best 
decision.
    Thank you very much.
    Mr. Coffman. Thank you, General Bacon.
    Can you walk us through--either one of you, could one of 
you walk us through the survey results that you did, just 
quickly, in terms of the different categories?
    Ms. Kelley.
    Ms. Kelley. Mr. Chairman, I would be happy to. In front of 
you, the document speaks to three primary points that are 
germane to this discussion. The top left speaks to the 
challenge, and that is the graphic that shows you the--when we 
would close. And so if you look on the top left, we talk about 
the fact that, with no changes, we would be out of space in the 
early 2040s. If we were to get Southern Expansion, that can 
push us another 10-ish years. But therein lies the challenge, 
because that does not net us a significant gain. And so that is 
what we are illustrating.
    We went out with our survey to explain that challenge to 
the public, to veteran service organizations, military service 
organizations, and anyone else who wanted to participate. And 
what you see in the top right is the themes that came as a 
result of that survey.
    Now, in the survey, we asked open and honest questions 
about eligibility. We wanted feedback on whether people 
understood it, understood what it was today, and understood the 
challenge that the executive director and I are talking about, 
which is the fact that we can't serve the full population who 
is eligible today, we are closing down the available space. And 
so in the top right, you can see the preponderance of 
respondents felt very strongly about preserving Arlington open 
and active well into the future. And that is important for us 
because that tells us we have to think about changes that allow 
us to do that.
    And the survey response centers on significant categories 
where people felt very strongly. Killed in action, Medal of 
Honor, high award recipients, former POW, or perish on Active 
Duty were clearly the categories that the respondents of our 
first survey felt very strongly about. And those have been 
consistent in our dialogue. It is very telling to see where 
those percentages laid out, sir.
    Mr. Coffman. Well, thank you.
    And let me just say as someone who--as a military retiree, 
I don't feel that--I want to preserve Arlington Cemetery, first 
and foremost, for those killed in action or those who are lost 
in Active Duty. I have, you know, known soldiers and Marines 
during my career who were lost in training accidents, and I 
honor their loss as much as I do those killed in action, for a 
number of reasons that I don't need to go into today.
    I believe, to the American people, that when they associate 
the Arlington National Cemetery, they do so in thinking about 
our war dead. I mean, I think that that is the association. And 
so if we go beyond that to some degree, to Medal of Honor 
winners or significant valor awards, POWs, I would think, if we 
do family members--I can't remember where that is on the 
survey. But I think it has to be limited. And I do not think 
that opening a noncontiguous annex or noncontiguous cemetery 
will have the same value to the American people as Arlington 
National Cemetery does. I just don't think, even if you do all 
the honors.
    We do all the honors at Fort Logan National Cemetery in 
Colorado. And it is not Arlington. But my father, late father, 
a World War II, Korean war veteran, highly decorated, is 
interred there, buried there. And I think that that is highly 
appropriate. He was not killed in action. He lived a full life. 
And so that is where I sort of am right now.
    Are there any other comments that you would like to make at 
this time in closing?
    Ms. Durham-Aguilera. So, Chairman Coffman, just a couple of 
comments. Now, first, our process going forward is to launch a 
second survey within the next few weeks. We will have it open a 
minimum of 60 days. We could adjust based on the feedback that 
we get.
    After we are able to analyze the results of that next 
survey, we will put that all together, and then I intend to go 
to the Secretary of the Army and provide the results of that, 
plus recommendations. He intends to discuss any possible 
changes with his service colleagues from the other branches of 
the armed services and the Coast Guard, and then, of course, 
the Secretary of Defense. He also intends that, at that time, 
we also have further discussions with Congress. So that is the 
focus of our way ahead.
    In the meantime, we will continue to do that great honor. 
We talk about it every day, about what an honor it is to serve 
at Arlington National Cemetery and take care of our veterans 
and patriots. Thank you.
    Mr. Coffman. Ms. Kelley.
    Ms. Kelley. I would just like to thank you for the 
opportunity to talk about this challenge. And the executive 
director is exactly right, we need to continue the open 
dialogue and we will.
    Mr. Coffman. Sure.
    Ms. Kelley. And we will continue to serve as best we can 
each day. Thank you.
    Mr. Coffman. And I just want to say, if we are going to 
keep Arlington there for generations to come, those who have 
been lost or who have made the ultimate sacrifice in defense of 
our freedom, then we are going to have to make some tough 
decisions. And I am prepared to do that.
    I wish to thank all of the witnesses for their testimony 
today on this important issue.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:58 a.m., the subcommittee was adjourned.]

     
=======================================================================

                           A P P E N D I X

                             March 8, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2018

=======================================================================

   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre></body></html>
